WILMERHALE
July 18, 2019

Mark C. Fleming
+1 617 526 6909 (t)
+1 617 526 5000 (f)
mark.f1eming@wilmerhale.com

Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street NE
Washington, DC 20543
Re:

United States v. Sineneng-Smith, No. 19-67

Dear Mr. Harris:
Please enter my appearance as counsel of record for Respondent Evelyn Sineneng-Smith in the
above-captioned case.
The petition for certiorari was filed on July 12, 2019, and a response is currently due on August
12, 2019. Pursuant to Rule 30.4, I respectfully request a 16-day extension of time-to and
including Wednesday, August 28, 2019-within which to file a response to the petition.
The extension is requested because of professional commitments in other matters. Petitioner
sought and received a total of 60 days' extension; Respondent has not previously sought any
extensions in this matter. Respondent's requested extension will not change the timing of the
Conference for which the petition will be distributed under the Court's rules.
Thank you for your consideration, and please do not hesitate to contact me if you require any
further information.
Yours sincerely,

~c~~~
Mark C. Fleming

cc: Noel J. Francisco, Solicitor General of the United States

Wilmer Cutler Pickering Hale and Dorr
Beijing

Berlin

Boston

Brussels

Denver

Frankfurt

LLP,

London

60 State Street, Boston, Massachusetts 02109
Los Angeles

New York

Palo Alto

San Francisco

Washington

